HHS/OIG-Audit--"Health Personnel Incorporated, McKees Rocks, Pennsylvania, (A-03-00-00020)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Health Personnel Incorporated, McKees Rocks, Pennsylvania," (A-03-00-00020)
February 14, 2001
Complete
Text of Report is available in PDF format (585 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit showed that $7,809 or about 1 percent of the total $541,190 claimed by HPI on its FY 1998 Medicare cost report
were claimed in violation of Medicare requirements. The following expenditures were unallowable:
- on call pay for Chief Financial Officer (CFO) - $5,520;
- flowers - $218;
- dry cleaning - $360;
- personal vehicle repairs - $288;
- meals - $826;
- duplicate expense account reimbursement - $43;
- personal homeowners insurance - $202;
- second telephone line at personal residence - $233; and
- excess salary payment - $119.
We recommend that HPI strengthen its procedures to ensure that costs in violation of Medicare reimbursement requirements
are excluded from the Medicare cost report prior to submission. We will provide the fiscal intermediary (FI) with detail
of the identified $7,809 in unallowable costs for appropriate adjustment to the HPI FY 1998 Medicare cost report and collection
of the resulting overpayment.